GR-90-98-008
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE CITY OF SAN JOSE POLICE DEPARTMENT
CALIFORNIA
GR-90-98-008
FEBRUARY 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of four
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of San Jose Police Department (SJPD), California.
The SJPD received a grant of $2,325,000 to hire 31 sworn officers under the Accelerated
Hiring, Education, and Deployment Program (AHEAD), $1,888,892 to redeploy 93 sworn officer
full-time equivalents (FTEs) into community policing under the Making Officer Redeployment
Effective program for 1995 (MORE 95), $975,000 to hire 13 sworn officers under the
Universal Hiring Program (UHP), and $1,492,310 to redeploy 63 officer FTEs to community
policing under MORE 96. The purpose of the additional officers under each of the grant
programs is to enhance community policing efforts. 
In brief, our audit determined that the SJPD violated the following grant conditions:


- Unallowable costs for Medicare and Concern totaling $5,335 were charged to the AHEAD
    ($1,302) and the UHP ($4,033) grants.
- SJPD did not track the number of redeployed hours. Since we could not verify grant
    funds were used to redeploy officers, we determined $1,888,892 spent under the MORE 95
    grant was unsupported.
- The Financial Status Reports for the AHEAD and MORE grants did not accurately reflect
    costs as reported in the accounting records.
- The 1996 Officer Progress Report due on June 20, 1997, was not submitted to the COPS
    office for the AHEAD grant. In addition, Financial Status Reports for the AHEAD and MORE
    95 grants were not submitted timely.


#####